                                                    HEALTH '" HUMAN SERVICES                                                      Office of Inspector General
(..~ DEPARTMENT OF


 ,,q,,~ DEe 2 3 2008                                                                                                              Washington, D.C. 20201




                      TO: Kerr Weems
                                            Acting Administrator
                                            Centers for Medicare & Medicaid Services


                     FROM: Daniel R. Levinson                                 /S/
                                            Inspector General


                     SUBJECT: Memorandum Report: "Comparson of                                           First-Quaer 2008 Average Sales
                                            Prices and Average Manufactuer Prices: Impact on Medicare
                                            Reimbursement for Third Quarer 2008," OEI-03-08-00530


                     This congressiona1ly mandated review compares average sales prices (ASP) to average
                     manufacturer prices (AMP) for Medicare Par B prescription drgs and identifies drgs with
                     ASPs that exceeded AMs by at least 5 percent durng the first quarer of2008. It also
                     determines the impact of lowerìng reimbursement amounts for drugs that meet the 5-percent
                     threshold.

                     Since the advent of  the ASP reimbursement methodology in 2005, the Office ofInspector
                     General (OIG) has issued eight report comparng ASPs to AMs. Unlike those previous
                     reports, this curent pricing comparison examined drngs that met the 5-percent theshold
                     based on either complete or parial AMP data. i Of the 312 dngs with complete AM data in
                     the first quarer of 2008, 16 met the 5-percent theshold under the revised ASP payment
                     methodology recently mandated by statute. Eight of                               these 16 drgs were previously eligible
                     for price adjustment under the revised payment methodology, with 3 drugs meeting the
                     5-percent theshold in each of the past five quarers. If reimbursement amounts for all
                     16 drgs had been based on 103 percent of the AMPs, we estimate that Medicare
                     expenditues would have been                    reduced by $5.1 milion durg the               thrd quaer of    2008 alone.
                     Of        the 129 drgs with only parial AM data, 25 had ASPs that exceeded the AMPs by at
                     least 5 percent in the first quarer of2008. We estimate that Medicare expenditues would
                     have been reduced by $2.6 milion durig the third quarer of    2008 if reimbursement amounts
                     for these 25 drugs had been based on 103 percent of                              the AMPs. We could not perform
                     pricing comparsons for an additional 76 drgs because none of the drug products used to
                     establish Medicare reimbursement had corresponding AMP data. Manufacturers for more

                     i In previous reports, OIG perfonned pricing comparisons only for those drgs with AMP data for every drg
                     product   used by the Centers for Medicare & Medicaid Servces (CMS) to calculate Medicare reimbursement
                     amounts. To ensure that a broader range of drgs is subject to OIG's pricing comparisons, this report
                     additionally examined drgs with only parial AMP data (i.e., drgs with AM data for some, but not all, of the
                     products used to establish Medicare reimbursement).


                     OEI-03-08-00530                                                          Comparson of   First-Quaret 2008 ASPs and AMPs
Page 2 – Kerry Weems


than one-fifth of these products had a Medicaid drug rebate agreement and were therefore
generally required to submit AMPs. OIG is working with CMS to evaluate and pursue
appropriate actions against those manufacturers that fail to submit required data.

BACKGROUND

Section 1847A(d)(2)(B) of the Social Security Act (the Act) mandates that OIG compare
ASPs to AMPs. If OIG finds that the ASP for a drug exceeds the AMP by a certain
percentage (currently 5 percent), section 1847A(d)(3)(A) of the Act states that the Secretary
of the Department of Health and Human Services (the Secretary) may disregard the ASP for
the drug when setting reimbursement amounts. Section 1847A(d)(3)(C) of the Act goes on
to state that “. . . the Inspector General shall inform the Secretary (at such times as the
Secretary may specify to carry out this subparagraph) and the Secretary shall, effective as of
the next quarter, substitute for the amount of payment . . . the lesser of (i) the widely
available market price . . . (if any); or (ii) 103 percent of the average manufacturer
price . . . .”

Medicare Part B Coverage of Prescription Drugs
Medicare Part B covers only a limited number of outpatient prescription drugs. Covered
drugs include injectable drugs administered by a physician; certain self-administered drugs,
such as oral anticancer drugs and immunosuppressive drugs; drugs used in conjunction with
durable medical equipment; and some vaccines.

Medicare Part B Payments for Prescription Drugs
CMS contracts with private companies, known as Medicare Administrative Contractors
(MAC), to process and pay Medicare Part B claims, including those for prescription drugs.
To obtain reimbursement for covered outpatient prescription drugs, physicians and suppliers
submit claims to their MACs using procedure codes. CMS established the Healthcare
Common Procedure Coding System (HCPCS) to provide a standardized coding system for
describing the specific items and services provided in the delivery of health care. In the case
of prescription drugs, each HCPCS code defines the drug name and dosage size but does not
specify manufacturer or package size information.

Medicare and its beneficiaries spent approximately $11 billion for Part B drugs in 2007. 2
Although Medicare paid for more than 675 outpatient prescription drug HCPCS codes that
year, the majority of spending for Part B drugs was concentrated on a relatively small subset
of those codes. In 2007, 52 codes accounted for 90 percent of the expenditures for Part B
drugs, with only 11 of these drugs representing half of the total Part B drug expenditures.




2
 Medicare expenditures for Part B drugs were calculated using 2007 data in CMS’s Part B Extract and
Summary System (BESS), which were 98 percent complete at the time of extraction.

OEI-03-08-00530                                   Comparison of First-Quarter 2008 ASPs and AMPs
Page 3 – Kerry Weems


Reimbursement Methodology for Part B Drugs and Biologicals
Since January 2005, Medicare Part B has been paying for most covered drugs using a
reimbursement methodology based on ASPs. 3 Section 1847A(c) of the Act, as added by the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
P.L. No. 108-173, defines an ASP as a manufacturer’s sales of a drug to all purchasers in the
United States in a calendar quarter divided by the total number of units of the drug sold by
the manufacturer in that same quarter. The ASP is net of any price concessions, such as
volume discounts, prompt pay discounts, cash discounts, free goods contingent on purchase
requirements, chargebacks, and rebates other than those obtained through the Medicaid drug
rebate program. 4 Sales that are nominal in amount are exempted from the ASP calculation,
as are sales excluded from the determination of “best price” in the Medicaid drug rebate
program. 5 6

Manufacturers report ASPs by national drug codes (NDC), which are 11-digit identifiers that
indicate the manufacturer, product dosage form, and package size of the drug. Manufacturers
must provide CMS with the ASP and volume of sales for each NDC on a quarterly basis,
with submissions due 30 days after the close of each quarter. 7

Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS codes
rather than NDCs and more than one NDC may meet the definition of a particular HCPCS
code, CMS has developed a file that “crosswalks” manufacturers’ NDCs to HCPCS codes.
CMS uses information in this crosswalk file to calculate volume-weighted ASPs for covered
HCPCS codes.

Calculation of Volume-Weighted Average Sales Prices
To calculate volume-weighted ASPs, CMS uses an equation that involves the following
variables: the ASP for the 11-digit NDC as reported by the manufacturer, the volume of
sales for the NDC as reported by the manufacturer, and the number of billing units in the
NDC as determined by CMS. The amount of the drug contained in an NDC may differ from
the amount of the drug specified by the HCPCS code that providers use to bill Medicare.
Therefore, the number of billing units in an NDC describes the number of HCPCS code units
that are in that NDC. For instance, an NDC may contain a total of 10 milliliters of Drug A,
but the corresponding HCPCS code may be defined as only 5 milliliters of Drug A. In this
case, there are two billing units in the NDC. CMS calculates the number of billing units in
each NDC when developing its crosswalk files.

3
  In 2004, the reimbursement amount for most covered drugs was based on 85 percent of the average wholesale
price as published in national pricing compendia, such as the “Red Book.” Before 2004, Medicare Part B
reimbursed for covered drugs based on the lower of either the billed amount or 95 percent of the average
wholesale price.
4
  Section 1847A(c)(3) of the Act.
5
  Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the
manufacturer during the rebate period to any wholesaler, retailer, provider, health maintenance organization,
nonprofit entity, or governmental entity within the United States, with certain exceptions.
6
  Section 1847A(c)(2) of the Act.
7
  Section 1927(b)(3) of the Act.

OEI-03-08-00530                                    Comparison of First-Quarter 2008 ASPs and AMPs
Page 4 – Kerry Weems


Before April 2008, CMS calculated volume-weighted ASPs using the equation presented in
Appendix A. However, section 112(a) of the Medicare, Medicaid, and SCHIP Extension Act
of 2007, P.L. No. 110-173, changed section 1847A(b) of the Act to require that CMS
compute volume-weighted ASPs using a revised methodology, effective April 2008. This
revised methodology was initially proposed by OIG in a February 2006 report entitled
“Calculation of Volume-Weighted Average Sales Price for Medicare Part B Prescription
Drugs” (OEI-03-05-00310). The revised equation for calculating volume-weighted ASPs is
also provided in Appendix A.

Third-quarter 2008 Medicare allowances for most covered drug codes were based on
first-quarter 2008 ASP submissions from manufacturers, which were volume-weighted using
the revised methodology. Under the ASP pricing methodology, the Medicare allowance for
most Part B drugs is equal to 106 percent of the volume-weighted ASP for the HCPCS code.
Medicare beneficiaries are responsible for 20 percent of this amount in the form of
coinsurance.

The Medicaid Drug Rebate Program and Average Manufacturer Prices
For Federal payment to be available for covered outpatient drugs provided under Medicaid,
sections 1927(a)(1) and (b)(1) of the Act mandate that drug manufacturers enter into rebate
agreements with the Secretary and pay quarterly rebates to State Medicaid agencies. Under
these rebate agreements and pursuant to section 1927(b)(3) of the Act, manufacturers must
provide CMS with the AMP for each of their NDCs on a quarterly basis, with submissions
due 30 days after the close of each quarter. 8

As generally defined in section 1927(k)(1) of the Act, the AMP is the average price paid to
the manufacturer for the drug in the United States by wholesalers for drugs distributed to the
retail pharmacy class of trade. Before the passage of the DRA, manufacturers were required
to deduct customary prompt pay discounts when calculating AMPs. However, section
6001(c)(1) of the DRA amended section 1927(k)(1) of the Act such that AMPs must be
determined without regard to customary prompt pay discounts, effective January 2007. In
December 2006, CMS instructed manufacturers to exclude customary prompt pay discounts
from their AMP calculations as of January 2007. 9 In July 2007, CMS published a final rule
at 72 Fed. Reg. 39142 (July 17, 2007) that, among other things, implements section
6001(c)(1) of the DRA and clarifies the way in which the AMP must be calculated.
Specifically, 42 CFR § 447.504 of the final regulation clarifies the manner in which the AMP
is to be determined. 10

8
  Section 6001(b)(1)(A) of the Deficit Reduction Act of 2005 (DRA), P.L. No. 109-171, changed section
1927(b) of the Act to require that manufacturers also report AMPs on a monthly basis, effective January 2007.
Drug manufacturers will continue to report quarterly AMP data in addition to their monthly submissions.
9
  CMS, Medicaid Drug Rebate Program, “Bulletin for Participating Drug Manufacturers,” Release No. 76,
December 15, 2006.
10
   In December 2007, the United States District Court for the District of Columbia preliminarily enjoined the
implementation of the regulation for certain purposes not relevant to this report. Section 203 of the Medicare
Improvements for Patients and Providers Act of 2008 also delayed the implementation of certain aspects of the
regulation and the DRA requirements. Again, those aspects are not relevant for the purposes of this report.

OEI-03-08-00530                                    Comparison of First-Quarter 2008 ASPs and AMPs
Page 5 – Kerry Weems


The AMP is generally calculated as a weighted average of prices for all of a manufacturer’s
package sizes of a drug sold during a given quarter and is reported for the lowest identifiable
quantity of the drug (e.g., 1 milliliter, 1 tablet, 1 capsule).

If a manufacturer fails to provide AMP data in a timely manner, civil monetary penalties may
be imposed. 11 In addition, pursuant to section 1927(b)(4)(B) of the Act, the Secretary may
terminate a rebate agreement “for violation of the requirements of the agreement or other
good cause shown.” CMS has terminated a number of manufacturers for failure to report
drug pricing data as required by section 1927 of the Act. CMS has also provided OIG with
information about manufacturers that failed to submit drug-pricing data for the purposes of
evaluating potential civil monetary penalty actions.

Office of Inspector General’s Monitoring of Average Sales Prices and Average
Manufacturer Prices
Since the ASP reimbursement methodology for Part B prescription drugs was implemented
in January 2005, OIG has issued seven quarterly reports comparing ASPs and AMPs. In
addition, OIG recently completed an annual overview of ASPs and AMPs, which examined
data across all four quarters of 2007 using the revised ASP payment methodology recently
implemented by CMS. A list of all eight reports is provided in Appendix B.

Although CMS has acknowledged the Secretary’s authority to adjust ASP payment limits
based on the findings of OIG’s pricing comparisons, CMS has yet to make any changes to
Part B drug reimbursement as a result of these studies. Rather, CMS has emphasized both
the complexity of substituting payment amounts and the importance of proceeding cautiously
to avoid unintended consequences. 12 In commenting on OIG’s reports, CMS has expressed a
desire to both better understand fluctuating differences between ASPs and AMPs and engage
stakeholders, with the intent of developing a process for making price substitutions. 13
However, CMS has not specified what, if any, steps it will take to adjust Medicare
reimbursement amounts for drugs that meet the 5-percent threshold specified in section
1847A(d)(3) of the Act.

OIG will continue to meet its congressional mandate by issuing reports based on quarterly
pricing comparisons, along with annual overviews to summarize findings across each
calendar year.

METHODOLOGY

We obtained from CMS NDC-level ASP data from the first quarter of 2008, which were used
to establish Part B drug reimbursement amounts for the third quarter of 2008. In addition, we
obtained the file that CMS used to crosswalk NDCs to their corresponding HCPCS codes.


11
   Pursuant to section 1927(b)(3)(C) of the Act.
12
   OEI-03-08-00450, December 2008.
13
   OEI-03-07-00140, July 2007 and OEI-03-08-00450, December 2008.

OEI-03-08-00530                                Comparison of First-Quarter 2008 ASPs and AMPs
Page 6 – Kerry Weems


Both the ASP data and the crosswalk file were current as of June 10, 2008. We also obtained
AMP data from CMS for the first quarter of 2008, which were current as of May 13, 2008.

Analysis of Average Sales Price Data From the First Quarter of 2008
As mentioned previously, Medicare does not base reimbursement for covered drugs on
NDCs; instead, it uses HCPCS codes. Therefore, CMS uses ASP information submitted by
manufacturers for each NDC to calculate a volume-weighted ASP for each covered HCPCS
code. When calculating these volume-weighted ASPs, CMS includes only NDCs with ASP
submissions that are deemed valid. We did not examine NDCs that CMS opted to exclude
from its calculation, nor did we verify the accuracy of CMS’s crosswalk files.

As of June 2008, CMS had established prices for 527 HCPCS codes based on the revised
ASP reimbursement methodology mandated by section 112(a) of the Medicare, Medicaid,
and SCHIP Extension Act of 2007. 14 Reimbursement amounts for the 527 HCPCS codes
were based on ASP data for 3,384 NDCs.

Analysis of Average Manufacturer Price Data From the First Quarter of 2008
In previous quarters, OIG performed pricing comparisons for only those drug codes with
AMP data for every drug product used by CMS to calculate the Medicare reimbursement
amount. As a result of that conservative approach, at least 17 percent of HCPCS codes were
excluded from our analysis in any given quarter. To ensure that a broader range of drug
codes is subject to OIG’s pricing comparisons, this report additionally examined drug codes
with only partial AMP data (i.e., drug codes with AMP data for some, but not all, of the
products used to establish Medicare reimbursement). For the purposes of this report, we
divided HCPCS codes into the following three groups:

        (1) HCPCS codes with AMP data for every NDC that CMS used in its calculation of
            volume-weighted ASPs,

        (2) HCPCS codes with AMP data for only some of the NDCs that CMS used in its
            calculation of volume-weighted ASPs, and

        (3) HCPCS codes with no AMP data for any of the NDCs that CMS used in its
            calculation of volume-weighted ASPs.

As previously noted, the AMP for each NDC is reported for the lowest identifiable quantity
of the drug contained in that NDC (e.g., 1 milliliter, 1 tablet, 1 capsule). In contrast, the ASP
is reported for the entire amount of the drug contained in the NDC (e.g., for 50 milliliters, for
100 tablets). To ensure that the AMP would be comparable to the ASP, it was necessary to
convert the AMP for each NDC so that the AMP represented the total amount of the drug
contained in that NDC.


14
 Several Part B drugs, including certain vaccines and blood products, are not paid under the ASP
methodology.

OEI-03-08-00530                                    Comparison of First-Quarter 2008 ASPs and AMPs
Page 7 – Kerry Weems


To calculate “converted AMPs” for NDCs in the first and second groups, we multiplied the
AMP by the total amount of the drug contained in each NDC, as identified by sources such as
the CMS crosswalk file, manufacturer Web sites, the “Red Book,” and the Food and Drug
Administration’s NDC directory. For certain NDCs, we were unable to successfully identify
the amount of the drug reflected by the ASP and therefore could not calculate a converted
AMP.

Using NDCs with successful AMP conversions, we then calculated a volume-weighted AMP
for each of the corresponding HCPCS codes, consistent with the revised methodology for
calculating volume-weighted ASPs. Appendix C provides a more detailed description of the
methods we used both to convert AMPs and calculate volume-weighted AMPs. Table 1
provides the final number of HCPCS codes and NDCs included in our analysis after we
removed NDCs with either no AMP data or unsuccessful AMP conversions.
Table 1: Number of Drug Codes and NDCs Included in OIG’s Pricing Comparison
                                                                               Number of           Number of
 Availability of AMP Data for HCPCS Code
                                                                            HCPCS Codes               NDCs

 Complete AMP Data                                                                    312               1,283

 Partial AMP Data                                                                     129               1,129

 No AMP Data                                                                            76                436

Source: OIG analysis of first-quarter 2008 ASP and AMP data, 2008.


Comparing Volume-Weighted ASPs to Volume-Weighted AMPs for the First Quarter
of 2008 Using the Revised ASP Payment Methodology
For each of the HCPCS codes included in our study, we compared the volume-weighted
ASPs and AMPs and identified codes with an ASP that exceeded the AMP by at least
5 percent.

For those HCPCS codes that met or exceeded the 5-percent threshold, we reviewed the
associated NDCs to verify the accuracy of the billing unit information. According to our
review, NDCs for eight codes had billing unit information in CMS’s crosswalk file that may
not have accurately reflected the number of billing units actually contained in the NDC.
Because volume-weighted ASPs and AMPs are calculated using this billing unit information,
we could not be certain that the results for these codes were correct. Therefore, we did not
consider these eight HCPCS codes as having met the 5-percent threshold.

For the remaining HCPCS codes, we then estimated the monetary impact of lowering
reimbursement to 103 percent of the AMP. 15 For each of the HCPCS codes that met the

15
  Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for drugs that meet the
5-percent threshold with the lesser of the widely available market price for the drug (if any) or 103 percent of
the AMP. For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimate presented in this report would have been greater.

OEI-03-08-00530                                         Comparison of First-Quarter 2008 ASPs and AMPs
Page 8 – Kerry Weems


5-percent threshold, we calculated 103 percent of the volume-weighted AMP and subtracted
this amount from the third-quarter 2008 reimbursement amount for the HCPCS code, which
is equal to 106 percent of the volume-weighted ASP. To estimate the financial effect for the
third quarter of 2008, we then multiplied the difference by one-fourth of the number of
services that were allowed by Medicare for each HCPCS code in 2007, as reported in
BESS. 16 This estimate assumes that the number of services that were allowed by Medicare
in 2007 remained consistent from one quarter to the next and that there were no significant
changes in utilization between 2007 and 2008.

Identifying Codes That Would Also Have Met the 5-Percent Threshold in 2007 if the
Revised ASP Payment Methodology Had Been In Effect
CMS was not required to implement the revised ASP payment methodology until the fourth
quarter of 2007. 17 However, to establish a more useful and consistent benchmark for
comparisons of ASPs and AMPs over time, OIG recently completed a report examining
ASPs and AMPs for all four quarters of 2007 using the revised methodology (i.e., we
recalculated volume-weighted ASPs and AMPs using the revised methodology for the first
three quarters of 2007). 18 In this current report, we used these recalculated ASPs and AMPs
to determine whether codes meeting the 5-percent threshold in the first quarter of 2008 would
have also met the 5-percent threshold in any quarter of 2007 if the revised ASP payment had
been in effect throughout the year. We performed this analysis only on codes with complete
AMP data, as codes with partial data had not been included in our prior pricing comparisons.

Limitations
We did not verify the accuracy of manufacturer-reported ASP and AMP data, nor did we
verify the underlying methodology used by manufacturers to calculate ASPs and AMPs.

Manufacturers are required to submit their quarterly ASP and AMP data to CMS 30 days
after the close of the quarter. Our analyses were performed on ASP and AMP data compiled
by CMS soon after that deadline. We did not verify whether manufacturers later provided
revised or missing data to CMS.

Furthermore, the definition of AMP changed effective January 2007, such that AMPs must
now be determined without regard to customary prompt pay discounts. 19 Because
manufacturers are still required to include customary prompt pay discounts in their ASP


16
   At the time of extraction, 2007 BESS data were 98 percent complete.
17
   There is a two-quarter lag between the sales period for which ASPs are reported and the effective date of
reimbursement amounts based on those ASPs. Therefore, the methodological changes that went into effect in
April 2008 were applied by CMS to ASP data from two quarters prior (i.e., the fourth quarter of 2007).
18
   “Comparison of Average Sales Prices and Average Manufacturer Prices: An Overview of 2007”
(OEI-03-08-00450). The 2007 overview report used only the revised ASP payment methodology; therefore, the
results presented in that report may differ from the results presented in each of the separate quarterly reports
previously published by OIG.
19
   Section 1927(k)(1) of the Act (as amended by section 6001(c)(1) of the DRA) and CMS, Medicaid Drug
Rebate Program, “Bulletin for Participating Drug Manufacturers,” Release No. 76, December 15, 2006.

OEI-03-08-00530                                     Comparison of First-Quarter 2008 ASPs and AMPs
Page 9 – Kerry Weems


calculations, the dynamic between ASPs and AMPs may be different in this report as
compared to that in OIG reports using prices submitted before 2007.

Standards
This inspection was conducted in accordance with the “Quality Standards for Inspections”
issued by the President’s Council on Integrity and Efficiency and the Executive Council on
Integrity and Efficiency.

RESULTS

Of the 312 Drug Codes With Complete AMP Data, Volume-Weighted ASPs for
16 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
Consistent with sections 1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs
to AMPs to identify instances in which the ASP for a particular drug exceeded the AMP by a
threshold of 5 percent. Under the revised ASP payment methodology recently mandated by
statute, 16 of the 312 HCPCS codes with complete AMP data (5 percent) met this 5-percent
threshold in the first quarter of 2008. A list of the 16 HCPCS codes, including their
descriptions and HCPCS dosage amounts, is presented in Appendix D.

Table 2 describes the extent to which ASPs exceeded AMPs for the 16 HCPCS codes. 20 For
over 60 percent of the codes (10 of 16), volume-weighted ASPs exceeded volume-weighted
AMPs by 20 percent or more. The ASPs for two of these codes were more than double the
AMPs.

                        Table 2: Extent to Which ASPs Exceeded AMPs for
                            16 HCPCS Codes With Complete AMP Data
                            Percentage by Which ASP             Number of HCPCS
                            Exceeded AMP                                   Codes
                            5.00%–9.99%                                           3
                            10.00%–19.99%                                         3
                            20.00%–29.99%                                         3
                            30.00%–39.99%                                         3
                            40.00%–49.99%                                         0
                            50.00%–59.99%                                         0
                            60.00%–69.99%                                         2
                            70.00%–79.99%                                         0
                            80.00%–89.99%                                         0
                            90.00%–99.99%                                         0
                            100% and above                                        2
                               Total                                             16

                          Source: OIG analysis of first-quarter 2008 ASP and AMP data, 2008.




20
     Because of the confidential nature of ASP data, the information in the table is presented in ranges.

OEI-03-08-00530                                         Comparison of First-Quarter 2008 ASPs and AMPs
Page 10 – Kerry Weems


Half of the 16 HCPCS codes were previously identified by OIG as having ASPs that
exceeded the AMPs by at least 5 percent. 21 Under the revised ASP payment methodology,
three HCPCS codes (J1364, J2690, and Q0169) would have met the 5-percent threshold in
each of the past five quarters, dating back to the first quarter of 2007. An additional three
HCPCS codes would have met the 5-percent threshold in three of the past five quarters if the
revised methodology had been used since the beginning of 2007. Table 3 presents a
breakdown of the eight HCPCS codes that previously met the threshold for price
adjustments.

     Table 3: Eight HCPCS Codes That Met the 5-Percent Threshold in the First Quarter of 2008
            and Previous Quarters (According to CMS’s Revised Payment Methodology)

                                               OIG Comparisons of ASPs to AMPs
                    HCPCS
                     Code            First        Fourth         Third       Second          First
                                   Quarter       Quarter       Quarter       Quarter       Quarter
                                     2008           2007         2007          2007          2007

                  J1364              X             X             X             X             X
                  J2690              X             X             X             X             X
                  Q0169              X             X             X             X             X
                  J2760              X             X                           X
                  J3315              X             X                                         X
                  J1457              X                                         X             X
                  J0300              X             X
                  J2700              X                           X
          Source: OIG analysis of ASP and AMP data from the first quarter of 2008 and all four quarters of 2007.


Lowering reimbursement amounts for the 16 HCPCS codes to 103 percent of the AMPs
would have reduced Medicare allowances by an estimated $5.1 million in the third quarter of
2008. Sections 1847A(d)(3)(A) and (B) of the Act provide that the Secretary may disregard
the ASP pricing methodology for a drug with an ASP that exceeds the AMP by at least
5 percent. Pursuant to section 1847A(d)(3)(C) of the Act, “. . . the Secretary shall, effective
as of the next quarter, substitute for the amount of payment . . . the lesser of (i) the widely
available market price . . . (if any); or (ii) 103 percent of the average manufacturer
price . . . .” 22 In this study, we identified 16 HCPCS codes that met the 5-percent threshold
specified in the Act. If reimbursement amounts for these 16 codes had been based on
103 percent of the AMPs during the third quarter of 2008, we estimate that Medicare
expenditures would have been reduced by $5.1 million in that quarter alone. 23

21
   We compared results from this report to those in a recent OIG report (OEI-03-08-00450) that examined ASPs
and AMPs for all four quarters of 2007 using the revised methodology.
22
   For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimates presented in this report would have been greater.
23
   This savings estimate assumes that the number of services that were allowed by Medicare in 2007 remained
consistent from one quarter to the next and that there were no significant changes in utilization between
2007 and 2008.

OEI-03-08-00530                                            Comparison of First-Quarter 2008 ASPs and AMPs
Page 11 – Kerry Weems


Two of the 16 HCPCS codes accounted for 90 percent of the $5.1 million. If the
reimbursement amounts for codes J9202 and J3315 had been based on 103 percent of the
AMP during the third quarter of 2008, Medicare expenditures would have been reduced by
an estimated $3.3 million and $1.3 million, respectively.

Of the 129 Drug Codes With Partial AMP Data, Volume-Weighted ASPs for
25 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
In previous quarters, OIG has examined only those HCPCS codes with AMP data for every
NDC that was used to establish the Medicare reimbursement amount. To ensure that a
broader range of drugs was included in OIG’s pricing comparisons for this quarter, we also
examined 129 HCPCS codes for which only partial AMP data were available. Under the
revised payment methodology, ASPs for 25 of these 129 HCPCS codes (19 percent)
exceeded the AMPs by at least 5 percent in the first quarter of 2008. A list of the 25 HCPCS
codes, including their descriptions and HCPCS dosage amounts, is presented in Appendix E.

Table 4 describes the extent to which ASPs exceeded AMPs for the 25 HCPCS codes. 24 For
28 percent of the codes (7 of 25), volume-weighted ASPs exceeded volume-weighted AMPs
by 20 percent or more. The ASP for one of these codes was more than double the AMP.

                         Table 4: Extent to Which ASPs Exceeded AMPs for
                            25 HCPCS Codes With Partial AMP Data
                            Percentage by Which ASP             Number of HCPCS
                            Exceeded AMP                                   Codes
                            5.00%–9.99%                                           5
                            10.00%–19.99%                                        13
                            20.00%–29.99%                                         1
                            30.00%–39.99%                                         1
                            40.00%–49.99%                                         1
                            50.00%–59.99%                                         0
                            60.00%–69.99%                                         1
                            70.00%–79.99%                                         1
                            80.00%–89.99%                                         1
                            90.00%–99.99%                                         0
                            100% and above                                        1
                               Total                                             25

                          Source: OIG analysis of first-quarter 2008 ASP and AMP data, 2008.




24
     The information in the table is presented in ranges because of the confidential nature of ASP data.

OEI-03-08-00530                                         Comparison of First-Quarter 2008 ASPs and AMPs
Page 12 – Kerry Weems


Lowering reimbursement amounts for the 25 HCPCS codes to 103 percent of the AMPs
would have reduced Medicare allowances by an estimated $2.6 million in the third quarter of
2008. 25 26 Two of the 25 HCPCS codes accounted for almost 75 percent of the $2.6 million.
If the reimbursement amounts for codes J1626 and J2430 had been based on 103 percent of
the AMP during the third quarter of 2008, Medicare expenditures would have been reduced
by an estimated $1.2 million and $811,000, respectively.

Pricing Comparisons Could Not Be Performed on 76 Drug Codes Because No AMP
Data Were Available
For 76 HCPCS codes, OIG could not compare ASPs and AMPs because there were no AMP
data for any of the 436 NDCs that CMS used when calculating drug reimbursement amounts
for these codes. In 2007, Medicare allowances for these 76 codes totaled $144 million.

More than one-fifth of NDCs without AMP data belonged to manufacturers with Medicaid
drug rebate agreements. 27 Manufacturers for 23 percent of the NDCs without AMP data
(99 of 436) participated in the Medicaid drug rebate program as of the first quarter of 2008
and were therefore required to submit AMP data. 28 29 The majority (59 percent) of these
99 NDCs belonged to three manufacturers.

Manufacturers for the remaining 337 of 436 NDCs did not participate in the Medicaid drug
rebate program and therefore were not required to submit AMP data.

CONCLUSION

To monitor Medicare reimbursement amounts based on ASPs and consistent with sections
1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs and AMPs to identify
instances in which the ASP for a particular drug exceeded the AMP by at least 5 percent.
This is OIG’s ninth report comparing ASPs and AMPs. Unlike OIG’s previous pricing
comparisons, this report considers HCPCS codes with AMP data for every NDC that CMS
used to establish reimbursement amounts, as well as HCPCS codes with only partial AMP
data.



25
   For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimates presented in this report would have been greater.
26
   This savings estimate assumes that the number of services that were allowed by Medicare in 2007 remained
consistent from one quarter to the next and that there were no significant changes in utilization between
2007 and 2008.
27
   To determine whether a manufacturer participated in the Medicaid drug rebate program in 2007, we consulted
the list of participating drug companies posted on CMS’s Web site.
28
   Although manufacturers with rebate agreements are generally required to submit AMP data, there may be
valid reasons as to why an AMP was not provided for a specific NDC in a given quarter. For example, a
manufacturer may not have been required to submit an AMP if the drug product had been terminated and there
was no drug utilization during the quarter.
29
   These 99 NDCs were crosswalked to 41 HCPCS codes.

OEI-03-08-00530                                   Comparison of First-Quarter 2008 ASPs and AMPs
Page 13 – Kerry Weems


Using the revised ASP payment methodology recently implemented by CMS, we identified a
total of 41 HCPCS codes in the first quarter of 2008 that met the threshold for price
adjustment. Sixteen of the forty-one HCPCS codes had complete AMP data. Of these
16 codes, 8 were previously identified by OIG as having ASPs that exceeded the AMPs by at
least 5 percent under the revised payment methodology. Three of the eight HCPCS codes
(J1364, J2690, and Q0169) met the 5-percent threshold in each of the past five quarters,
dating back to the first quarter of 2007. The remaining 25 of 41 HCPCS codes also met the
5-percent threshold in the first quarter of 2008 but did not have AMP data for every NDC
that CMS used when calculating reimbursement. Finally, we could not compare ASPs and
AMPs for 76 HCPCS codes because AMP data were not submitted for any of the NDCs that
CMS used to calculate reimbursement. Manufacturers for more than one-fifth of these NDCs
had a Medicaid drug rebate agreement and were therefore generally required to submit
AMPs. OIG is working with CMS to evaluate and pursue appropriate actions against those
manufacturers that fail to submit required data.

Some of OIG’s previous reports comparing ASPs and AMPs have contained
recommendations. We are not making additional recommendations in this report and, as
such, are issuing the report directly in final form. If you have comments or questions about
this report, please provide them within 60 days. Please refer to report number
OEI-03-08-00530 in all correspondence.




OEI-03-08-00530                            Comparison of First-Quarter 2008 ASPs and AMPs
Page 14 – Kerry Weems


APPENDIX A

Equations Used by the Centers for Medicare & Medicaid Services To Calculate
Volume-Weighted Average Sales Prices
In the following equations, a “billing unit” is defined as the number of Healthcare Common
Procedure Coding System (HCPCS) code units that are contained in a national drug code
(NDC).



1. The Revised Equation Used by the Centers for Medicare & Medicaid
   Services (CMS) To Calculate Volume-Weighted Average Sales Prices (ASP)
   Beginning April 1, 2008


                  Volume-Weighted ASP                   Sum of (ASP for NDC * Number of NDCs Sold)
                                           =
                   for the Billing Unit of
                       HCPCS Code                  Sum of (Number of NDCs Sold * Billing Units in NDC)




2. The Equation Used by CMS To Calculate Volume-Weighted ASPs Before
   April 1, 2008

                                                               ASP for NDC         * Number of NDCs Sold
                  Volume-Weighted ASP          Sum of
                                                            Billing Units in NDC
                   for the Billing Unit of
                       HCPCS Code          =
                                                                    Sum of Number of NDCs Sold




OEI-03-08-00530                                 Comparison of First-Quarter 2008 ASPs and AMPs
Page 15 – Kerry Weems


APPENDIX B

Previous Office of Inspector General Reports Comparing Average Sales Prices and Average
Manufacturer Prices


   •   “Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales Prices to
       Average Manufacturer Prices” (OEI-03-04-00430), April 2006


   •   “Comparison of Fourth-Quarter 2005 Average Sales Prices to Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Second Quarter 2006”
       (OEI-03-06-00370), July 2006


   •   “Comparison of Third-Quarter 2006 Average Sales Prices to Average Manufacturer
       Prices: Impact on Medicare Reimbursement for First Quarter 2007”
       (OEI-03-07-00140), July 2007


   •   “Comparison of First-Quarter 2007 Average Sales Prices to Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Third Quarter 2007”
       (OEI-03-07-00530), September 2007


   •   “Comparison of Second-Quarter 2007 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Fourth Quarter 2007”
       (OEI-03-08-00010), December 2007


   •   “Comparison of Third-Quarter 2007 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for First Quarter 2008”
       (OEI-03-08-00130), May 2008


   •   “Comparison of Fourth-Quarter 2007 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Second Quarter 2008”
       (OEI-03-08-00340), August 2008


   •   “Comparison of Average Sales Prices and Average Manufacturer Prices: An Overview
       of 2007” (OEI-03-08-00450), December 2008


OEI-03-08-00530                         Comparison of First-Quarter 2008 ASPs and AMPs
Page 16 – Kerry Weems


APPENDIX C

Detailed Methodology for Converting and Volume-Weighting Average Manufacturer
Prices for the First Quarter of 2008

Healthcare Common Procedure Coding System codes with complete average manufacturer
price data. Of the 527 Healthcare Common Procedure Coding System (HCPCS) codes with
reimbursement amounts based on average sales prices (ASP), 320 had average manufacturer
prices (AMP) for every national drug code (NDC) that the Centers for Medicare & Medicaid
Services (CMS) used to calculate volume-weighted ASPs. These 320 HCPCS codes
represented 1,358 NDCs. For 12 NDCs, we could not successfully identify the amount of the
drug reflected by the ASP and therefore could not calculate a converted AMP. These
12 NDCs were crosswalked to 8 HCPCS codes. We did not include these 8 HCPCS codes
(75 NDCs) in our final analysis.

Using the converted AMPs for the remaining 1,283 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 312 HCPCS codes consistent with the
revised methodology for calculating volume-weighted ASPs.

HCPCS codes with partial AMP data. There were 131 HCPCS codes with AMP data for
only some of the NDCs that CMS used in its calculation of volume-weighted ASPs. These
131 HCPCS codes represented a total of 1,590 NDCs. AMP data were either missing or
unavailable for 420 of these NDCs, which we then excluded from our calculation of
volume-weighted AMPs. 30

We calculated converted AMPs for each of the remaining 1,170 NDCs. For 41 of the
1,170 NDCs, we could not successfully identify the amount of the drug reflected by the ASP
and therefore could not calculate a converted AMP. We removed these 41 NDCs from our
analysis. 31 As a result, two HCPCS codes no longer had any NDCs with AMP data.
Therefore, these two HCPCS codes were removed from our analysis.

Using the converted AMPs for the remaining 1,129 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 129 HCPCS codes consistent with the
revised methodology for calculating volume-weighted ASPs.




30
   Although AMP data for these 420 NDCs were excluded from our calculation of volume-weighted AMPs, the
corresponding ASPs were not excluded from the volume-weighted ASPs as determined by CMS.
Volume-weighted ASPs remained the same, regardless of the availability of AMP data.
31
   Although we removed NDCs with problematic AMP conversions, we did not remove the corresponding
HCPCS codes, provided that other NDCs for those drug codes had usable AMP data. This differs from our
analysis of HCPCS codes with complete AMP data, in which we removed not only the NDCs with problematic
AMP conversions, but also the corresponding HCPCS codes.

OEI-03-08-00530                                 Comparison of First-Quarter 2008 ASPs and AMPs
Page 17 – Kerry Weems


HCPCS codes with no AMP data. For 76 HCPCS codes, there were no AMP data for any of
the NDCs that CMS used in its calculation of volume-weighted ASPs. These 76 HCPCS
codes represented 436 NDCs.




OEI-03-08-00530                        Comparison of First-Quarter 2008 ASPs and AMPs
Page 18 – Kerry Weems


APPENDIX D

Sixteen Drug Codes With Complete Average Manufacturer Price Data That Met the
5-Percent Threshold in the First Quarter of 2008


          Drug
          Code                                            Short Description                  Drug Code Dosage
              J0278                                 Amikacin sulfate injection                            100 mg

              J0300                                     Amobarbital injection                             125 mg

              J1020                              Methylprednisolone injection                              20 mg

              J1364                                      Erythro lactobionate                             500 mg

              J1457                                   Gallium nitrate injection                             1 mg

              J1955                                    Levocarnitine injection                                1g

              J2690                               Procainamide HCl injection                                  1g

              J2700                                 Oxacillin sodium injection                            250 mg

              J2760                            Phentolaine mesylate injection                               5 mg

              J2792                                  Rho(D) immune globulin                             100 units

              J3315                                       Triptorelin pamoate                            3.75 mg

              J7310                           Ganciclovir long-acting implant                             4.5 mg

              J9202                                Goserelin acetate implant                              3.6 mg

              J9320                                     Streptozocin injection                                1g

              Q0166                                      Granisetron HCl oral                               1 mg

              Q0169                                   Promethazine HCl oral                              12.5 mg

         Source: Office of Inspector General analysis of first-quarter 2008 average sales price and average manufacturer
         price data, 2008.




OEI-03-08-00530                                       Comparison of First-Quarter 2008 ASPs and AMPs
Page 19 – Kerry Weems


APPENDIX E

Twenty-Five Drug Codes With Partial Average Manufacturer Price Data That Met the
5-Percent Threshold in the First Quarter of 2008


          Drug
          Code                                            Short Description                  Drug Code Dosage
              J0170                            Adrenalin epinephrin injection                               1 mL

              J0560                          Penicillin G benzathine injection                      600,000 units

              J0610                               Calcium gluconate injection                              10 mL

              J0670                                Nepivacaine HCl injection                               10 mL

              J1190                               Dexrazoxane HCl injection                               250 mg

              J1626                                 Granisetron HCl injection                            100 mcg

              J1631                           Haloperidol decanoate injection                              50 mg

              J1940                                     Furosemide injection                               20 mg

              J2310                                   Naloxone HCl injection                                1 mg

              J2430                                    Pamidronate disodium                                30 mg

              J2680                                 Fluphenazine decanoate                                 25 mg

              J2790                         Rho(D) immune globulin injection                            300 mcg

              J3370                                Vancomycin HCl injection                               500 mg

              J3410                                Hydroxyzine HCl injection                               25 mg

              J3475                              Magnesium sulfate injection                              500 mg

              J9000                                          Doxorubicin HCl                               10 mg

              J9027                                     Clofarabine injection                               1 mg

              J9060                                        Cisplatin injection                             10 mg

              J9062                                        Cisplatin injection                             50 mg

              J9181                                       Etoposide injection                              10 mg

              J9182                                       Etoposide injection                             100 mg

              J9250                            Methotrexate sodium injection                                5 mg

              J9260                            Methotrexate sodium injection                               50 mg

              J9293                                        Mitoxantrone HCl                                 5 mg

              Q0164                                Prochlorperazine maleate                                 5 mg

         Source: Office of Inspector General analysis of first-quarter 2008 average sales price and average manufacturer
         price data, 2008.




OEI-03-08-00530                                       Comparison of First-Quarter 2008 ASPs and AMPs
